20A62
________________________________________________________________
________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________
WILBUR L. ROSS, JR., SECRETARY OF COMMERCE, ET AL., APPLICANTS
v.
NATIONAL URBAN LEAGUE, ET AL.
_______________
REPLY IN SUPPORT OF APPLICATION FOR A STAY PENDING
APPEAL TO THE UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT AND PENDING FURTHER PROCEEDINGS IN THIS
COURT AND REQUEST FOR AN IMMEDIATE ADMINISTRATIVE STAY
_______________
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

________________________________________________________________
________________________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20A62
WILBUR L. ROSS, JR., SECRETARY OF COMMERCE, ET AL., APPLICANTS
v.
NATIONAL URBAN LEAGUE, ET AL.
_______________
REPLY IN SUPPORT OF APPLICATION FOR A STAY PENDING
APPEAL TO THE UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT AND PENDING FURTHER PROCEEDINGS IN THIS
COURT AND REQUEST FOR AN IMMEDIATE ADMINISTRATIVE STAY
_______________
Respondents barely defend the lower courts’ rationale that it
was arbitrary and capricious for the agencies to decline to plan on
violating the statutory deadlines for the census.

They instead

contend –- wholly apart from the merits -– that a stay will not
redress the government’s harm because it supposedly was and is
impossible to meet the December 31 deadline for the Secretary of
Commerce’s report to the President.

But that plainly was not true

either

was

when

preliminary

the

Replan

injunction

Schedule

was

entered.

conceived
Like

the

or

when

courts

the

below,

respondents can pretend otherwise only by relying on earlier
predictions and willfully blinding themselves to months of evidence
about actual census operations.
now

have

additional

And insofar as the government may

difficulties

in

meeting

the

December

31

2
statutory deadline, that is only because the extended proceedings
in both courts below prevented the government from seeking relief
from this Court at an earlier juncture.
Those delays do not mean that respondents may cling to an
unwarranted injunction.

Every day still matters, for two reasons.

First, it may still be possible to meet the December 31 deadline if
the agencies immediately shift to post processing and, as before,
consider moving some aspects of their analysis that need not be
completed by December 31 beyond that date.

The census is a dynamic

process, and the government should not be prevented from even
attempting to meet the December 31 deadline.

Second, even if the

Bureau proves unable to complete post processing by December 31,
being able to get as close as possible to that deadline is
necessary to protect the government’s ability to meet the statutory
framework’s subsequent deadlines (including the President’s January
report to Congress).
of field operations.

There is no reason to mandate another 21 days
The Bureau has already achieved levels of

enumeration consistent with other recent censuses.

As of October

9, it had achieved an overall rate of 99.9%, with only one State
under 99%.

See p. 6 & note 1, infra.

The Court should immediately halt the district court’s ongoing
interference with the census and allow the Bureau’s professionals
to do their job by concluding a census that is accurate, complete,
and delivered as close as possible to the timetable that Congress
has prescribed pursuant to its responsibility to “direct” the

3
“Manner” in which the decennial census will be conducted.

U.S.

Const. Art. I, § 2, Cl. 3.
ARGUMENT
1.

Respondents understandably bury their merits arguments at

the end of their response.

The court of appeals acknowledged that

the district court likely erred in ordering the government not to
comply with the December 31 statutory deadline, and respondents do
not challenge that conclusion.
do

not

seriously

unconstitutional.

contend

Like the courts below, respondents
that

the

statutory

deadline

is

Nor could they, when the Constitution provides

that the census shall be taken in the manner directed by Congress.
Respondents also do not seriously contend that the statutory
deadline is not binding on the agency.

Nor could they, when it

uses mandatory language that is unambiguous and unconditional.
critically,

respondents,

like

the

courts

below,

still

And
have

identified no way besides the Replan Schedule to meet the statutory
deadline yet be more accurate.
Despite all that, respondents double down on the holding of
the courts below that the Secretary was legally required to plan on
breaching the statutory deadline, based on nothing more than hope
that such a breach might later be avoided or excused by Congress.
This

Court

is

highly

likely

to

reverse

the

lower

courts’

unprecedented finding that the Secretary acted arbitrarily and
capriciously by failing to consider acting contrary to law.

4
a.

In

ordering

the

Bureau

to

violate

the

December

31

statutory deadline to report the “total population by State[]” to
the President, 13 U.S.C. 141(b), the district court relied solely
on the APA, which permits a court to set aside agency action that
is “not in accordance with law” or “arbitrary” and “capricious,”
5 U.S.C. 706.

But seeking to comply with a valid statutory

requirement is the exact opposite of acting “not in accordance with
law,” and is certainly not “arbitrary” and “capricious.”

The

district court recognized that the statutory deadline “bind[s]” the
agency, Stay Appl. App. 68a, and the court of appeals therefore
stayed that portion of the district court’s injunction -- but then
inexplicably left standing the portion of the injunction that
extends field operations, when the only basis for the injunction
was the Bureau’s failure to consider ignoring the deadline.

As the

court of appeals recognized and respondents do not contest, the
partial stay will have the same effect as the full injunction “as a
practical matter,” because extending field operations will make it
impossible to comply with the deadline.

Id. at 173a.

Neither respondents nor the courts below have identified any
case in which a court has invoked its APA powers to order an agency
to miss an unambiguous statutory deadline, or faulted an agency for
failing to consider alternatives that would miss such a deadline.
Nor have they identified a case where the reason for breaching a
clear and express statutory requirement is an implicit duty (here,
to

achieve

an

“accura[te]”

census

under

a

standard

that,

by

5
respondents’ own admission, “[t]he district court never adopted or
applied,” Opp. 38).

That agencies have missed deadlines in the

past, see Opp. 40, in no way suggests that a court may order the
government to violate an otherwise valid statutory deadline.
Respondents’ reliance (Opp. 39-40) on Department of Homeland
Security v. Regents, 140 S. Ct. 1891 (2020), is misplaced.

Regents

did not suggest that the Acting Secretary of Homeland Security
would have acted arbitrary and capriciously had she declined to
consider disregarding an express statutory command.

Rather, it

found that, to the extent that the agency questioned the lawfulness
of only one aspect of DACA (the associated benefits), it was
required to consider the option of retaining a different portion of
DACA (forbearance from removal), the legality of which was not at
issue.

Id. at 1910-1915.

That reasoning in no way supports the

conclusion that the APA requires an agency to consider violating a
statutory directive that is concededly binding and lawful.
b.

Respondents assert (Opp. 41-44) that there is nothing in

the administrative record to support the conclusion that the Replan
Schedule

was

designed

to

achieve

an

accurate

assertion is belied by the factual record.

census.

That

The government has

consistently considered accuracy and worked to achieve an accurate
census, including when it adopted the Replan Schedule.
Replan

Schedule

was

designed

to

“improve

the

Indeed, the

speed

of

[the

Bureau’s] count without sacrificing completeness,” and, when the
Bureau announced the schedule, it committed to reach response rates

6
comparable to those of other recent censuses.

Stay Appl. App.

117a-118a.
The claim that the government failed to take accuracy into
account is based on a cramped understanding of the factual record.
As the government has explained (Stay Appl. 34-35), the district
court largely declined to consider declarations submitted after
August 3.
regarding

But that incorrectly ignores substantial evidence
the

development

of

the

Replan

and

its

actual

implementation -- including the fact that the Bureau has actually
achieved enumeration rates on par with recent censuses.

As of

October 9, the Bureau had enumerated 99.9% of all households, and
over 99% of households in 49 States -- and the only State under 99%
is Louisiana, which is at 98.2% and has supported the government in
the district court and the court of appeals.1
favorably with those in recent censuses.

These rates compare

The 2010 census had an

overall enumeration rate of 99.6%, and the 2000 census had an
overall rate of 99.45%.

D. Ct. Doc. 323-1, at 4 (Oct. 8, 2020).

And in 2000, only 45 States reached a 99% enumeration rate.
Respondents

have

purportedly

“significant”

but

Ibid.

undefined

“questions” about these numbers, Opp. 31, and offer unsubstantiated
and speculative criticisms of the Bureau’s method of conducting the
census, see, e.g., Opp. 31, 42 n.11.

But as the government has

U.S. Census Bureau, U.S. Dep’t of Commerce, 2020 Census
Housing Unit Enumeration Progress by State (Oct. 10, 2020),
https://2020census.gov/content/dam/2020census/news/daily-nrfurates/nrfu-rates-report-10-10.pdf.
1

7
explained (Stay Appl. 7 n.3), changes from previous enumeration
procedures have been minor and do not, as respondents assert,
“adversely

impact

accuracy,”

Opp.

31.

To

the

contrary,

as

Associate Director Fontenot recently explained, “the Census Bureau
is watching quality indicators closely” and “has no indication at
this point that the data it has collected in the [Non-Response
Followup] operation is of inferior quality to prior censuses.”
Ct. Doc. 323-1, at 5.
* * *

D.

In light of “the wide discretion bestowed

by Congress upon the Secretary.”

Wisconsin v. City of New

York, 517 U.S. 1, 23 (1996), respondents are not entitled to
continually challenge ongoing decisions made during the census, and
the judiciary is not equipped to micromanage day-to-day operational
metrics and decisions related to the census.2
Even if there were some undefined standard of census accuracy
that were subject to minimal judicial review, this Court has never
required perfection or even a minimum level of adequacy -- let
alone indicated when concerns about accuracy should compel the

Indeed, respondents’ assertion that their challenge “does
not require hands-on management by the district court,” Opp. 36, is
completely counter to the ongoing proceedings. Since issuing the
preliminary injunction, the district court has repeatedly ordered
the Bureau to respond to emails regarding minute details of census
operations sent by enumerators (who are not parties to or otherwise
involved in the litigation below) to the court’s email address. As
of October 9, the Bureau estimated that it had spent over 128 staff
hours responding to these inquiries from the court, which “has
impaired [the] ability” of senior Bureau leadership “to monitor key
operations such as * * * data quality programs and efforts to
ensure fiscal and administrative compliance.” D. Ct. Doc. 326-1,
at 4-5 (Oct. 9, 2020).
2

8
Bureau to consider violating the Census Act’s statutory deadlines.
See Stay Appl. App. 143a (Bumatay, J., dissenting) (“By requiring
the Bureau to prioritize an elusive standard of accuracy over and
above the interest in completing the census in a timely manner, as
prescribed by Congress, the court substitutes its own policy
determination for those set by Congress and delegated to the
Secretary.”); see also Stay Appl. 31-32.

In any event, the extent

of enumerations for the 2020 census is more than adequate to permit
field operations to conclude immediately without unduly affecting
accuracy.
c.

Indeed, respondents’ focus on internal census procedures

and metrics simply underscores the district court’s error in
finding that the Replan Schedule was discrete, final agency action
reviewable under the APA.
to

explain

why

the

See Stay Appl. 32-35.

announcement

of

a

Respondents fail

timeline

finalized plan -- constituted final agency action.

--

without

a

And they never

explain why announcing a schedule and summarizing a shift in the
course of the census transforms a dynamic, ever-changing process
into the final “‘consummation’ of the agency’s decisionmaking
process.”

Bennett v. Spear, 520 U.S. 154, 178 (1997) (citation

omitted); see Stay Appl. 34.

Contrary to respondents’ assertion

(Opp. 36), the Bureau’s internal deadlines have always been dynamic
in nature.3

That fact underscores both the absence of final and

Similarly, contrary to respondents’ argument (Opp. 2829), it is not a given that, absent the district court’s
injunction, field operations would have ceased on September 30. It
3

9
discrete agency action and the need for the federal courts to
permit the Bureau to continue making last-minute adjustments needed
to

maximize

its

ability

to

achieve

an

accurate

and

timely

enumeration.
2.

The balance of the equities tilts strongly in favor of a

stay because the government and the public will suffer direct,
irreparable injury absent an immediate stay, and there is no
corresponding risk of injury to respondents given the status of the
census.

Cf. Nken v. Holder, 556 U.S. 418, 434-435 (2009).

a.

Respondents primarily argue that the government has not

shown irreparable harm because it is unlikely to meet the December
31 deadline in any event.

Their argument essentially boils down to

the assertion that because the courts below took weeks to rule on
the preliminary injunction and the government’s stay application,
this Court is powerless to act and respondents are entitled to
retain the benefit of an unjustified preliminary injunction.

That

is not what equity requires, particularly where the government has
exceptionally strong merits arguments, see Klutznick v. Carey, 449
U.S. 1068 (1980), and where the decision below ensures that the
government

will

be

unable

to

“effectuat[e]”

valid

statutory

deadlines, Maryland v. King, 567 U.S. 1301 (2012) (Roberts, C.J.,
in chambers) (citation omitted).

Respondents’ attempt (Opp. 27) to

was always possible to extend field data collection if necessary to
improve response rates, as the Secretary did on September 28. Cf.
Opp. 30 (quoting potential for “extended” field operations under
the COVID Schedule if completion rates were not “acceptable”)
(citation omitted).

10
blame the government for “[a]ny delay” on the way to this Court
flies in the face of the record, see Stay Appl. 14-15, 39, and
ignores the twelve days it took the court of appeals to rule on the
government’s stay application (including a week after one panel had
already issued reasoned opinions about the merits of the legal
arguments and the stay factors).
Despite

the

various

outdated

and

often

out-of-context

statements that respondents repeatedly invoke, the government has
explained how it was able to perform field operations in less time
and to shift its target dates for concluding post processing, such
that an October 5 date for concluding field operations would still
allow for the submission of an accurate report to the President by
December

31.

The

Bureau

adopted

efficiencies

and

schedule

modifications to allow the steps necessary to ensure data integrity
to be completed in time for the Secretary to submit his report by
December 31, including by postponing certain steps necessary to
fully implement the Presidential Memorandum until after December
31.

See Stay Appl. 6-7 & n.2, 18-19.

With every additional

passing day, meeting the December 31 deadline becomes increasingly
difficult, but not necessarily impossible.

The conduct of the

census is an ongoing and dynamic process, and the Bureau may be
able to achieve efficiencies in post processing as it conducts that
stage of the census -- just as it did during field data collection.
See Stay Appl. App. 109a-110a.

On the other hand, leaving the

preliminary injunction in place would ensure that the government

11
can neither meet nor even get close to the December 31 deadline.
While respondents assert that “[t]he court of appeals’ decision
stayed the only portion of the district court’s order that even
arguably precluded them from meeting [the December 31] deadline,”
Opp. 25, they do not contest that requiring the government to
comply with the court’s October 31 deadline is the practical
equivalent of ordering the government to violate the December 31
deadline, see Stay Appl. 21-22.
Even if the Bureau proves unable to complete post processing
by

December

31

due

to

belated

relief

from

the

injunction,

finalizing post processing as close as possible to that deadline
will still be necessary to preserve the government’s ability to
comply with the statutory framework’s subsequent deadlines.

Every

passing day imposes more harm to the President’s ability to meet
his January statutory deadline for reporting the apportionment, and
to

the

ability

to

meet

contingent

redistricting

deadlines.

Respondents do not meaningfully grapple (Opp. 26 n.4) with the
effects that the district court’s order would have on States’
apportionment and redistricting; Louisiana and Mississippi have
identified 24 state deadlines that the injunction puts at risk.
Stay Appl. 23.

Indeed, in a number of States, “the delays would

mean deadlines that are established in state constitutions or
statutes will be impossible to meet.”
(Sept.

23,

difficulties

2020)
that

(emphasis
the

D. Ct. Doc. 204-7, at 3-4

added).

government

might

Needless
have

in

to

say,

any

meeting

the

12
redistricting

deadline,

see

Opp.

25-26,

would

be

seriously

compounded by permitting the injunction to stand and requiring the
government to further delay its ability to produce redistricting
data -- without any valid legal justification.
Respondents also assert (Opp. 21) that there can be no harm in
forcing census operations into “the same timeline
Bureau itself adopted in the COVID-19 Plan.”

* * *

that the

But the foundation of

that timeline was the assumption that Congress would extend by
months all of the statutory deadlines associated with the conduct
of the census.

By late July, political realities had undermined

that assumption, making it eminently reasonable to reconsider the
timeline.

Because Congress still has not moved the deadlines,

requiring the agencies to miss them by weeks or months would pose
not only real-world harm but also the “[s]erious separation of
powers concerns” that the court of appeals acknowledged.

Stay

Appl. App. 173a-174a.
b.

Respondents are not likely to suffer any substantial and

cognizable harm if this Court enters a stay.

The Bureau has

achieved a household enumeration rates on par with recent censuses,
see p. 6 & note 1, supra, and respondents have provided no evidence
that a census that is equivalent to other recent censuses would
cause them irreparable harms -- or, for that matter, any of the
injuries that they alleged as the basis for this suit.

Respondents

try to raise doubts about the quality of census data and suggest
that the Bureau should continue field work to achieve nominally

13
higher enumeration rates.

Opp. 29-30.

record

the

evidence

supports

Bureau’s

But as discussed above,
conclusion

that

data

collected in this census is of the same quality as that collected
in prior censuses.
Indeed, respondents do not argue that they are likely to
suffer apportionment injuries if a stay is entered.

And their

purported loss-of-funding injuries have no factual basis at this
juncture; their reliance on predictions about the Replan Schedule
-- predictions that time has disproved -- and a statement from this
Court that an undercount of 2% can result in a State’s loss of
federal funds (Opp. 33) do not amount to a showing of irreparable
harm,

where

the

Bureau

has

achieved

an

overall

household

enumeration rate of 99.9% and where the only State that is below
99% opposes the continuation of field data collection.
Finally, even if respondents could demonstrate that they would
suffer harm if this Court enters a stay, that would not impose
irreparable harm on respondents.

If further proceedings were to

result in a final judgment in respondents’ favor, the Bureau could
reopen field operations for a brief period and then redo post
processing if necessitated by that judgment.

While that would

undoubtedly be time-consuming and costly, any costs would fall on
the government -- and thus should be of no concern to respondents.
*

*

*

*

*

It would not only be inequitable, but would impose irreparable
public harm, to require the Bureau to continue engaging in field

14
data collection, notwithstanding that the 2020 census is proceeding
as completely and accurately as other recent censuses.

The Court

should grant a stay to enable the Bureau to resume its lawful
efforts to comply with Congress’s statutory direction about when
the decennial census must be concluded and when apportionment
figures must be reported to Congress.4
CONCLUSION
The preliminary injunction should be stayed pending appeal
and, if the court of appeals affirms the injunction, pending the
filing and disposition of a petition for a writ of certiorari and
any further proceedings in this Court.

The injunction also should

be administratively stayed during this application’s pendency.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
OCTOBER 2020

Allowing the Bureau to conclude field operations would
moot the government’s appeal in Trump v. New York, No. 20-366,
which would permit the Court to vacate the injunction entered by
the district court in that case and relieve the Court of any need
to expedite that appeal.
4

